NO. 20-6743

IN THE
SUPREME COURT OF THE UNITED STATES

NEIL DUSSARD,
Petitioner
vs.
UNITED STATES Or AMERICA,
Respondent

ANTI-VIRUS CERTIFICATION FORM
I, Devin McLaughlin, Esq., certify that I have scanned for viruses the PDF version of
Petition Neil Dussard's Petition for Writ of Certiorari that was submitted in this case and that no
viruses were detected.
Please print the name and the version of the anti-virus detector that you used:
Sophos Antivirus, Version 10.8.11.22
If you know, please print the version of revision and/or the anti-virus signature files:
Engine 3.82.0, Virus Data 5.83, Detects 61149336 Threats

Date: April 16, 2021

~aiz~sz.~

/s/ Devin McLaughlin
Devin McLaughlin

